PLANNING FOR THE LOAN MANAGEMENT
      AND ACCOUNTING SYSTEM
 MODERNIZATION AND DEVELOPMENT
              EFFORT

                 Report No.: 8-13
               Issued: May 14, 2008




               Prepared by the
         Office of Inspector General
     U. S. Small Business Administration
           U.S. Small Business Administration
           Office Inspector General                               Memorandum
    To:    Eric R. Zarnikow                                                                Date:    May 14, 2008
           Associate Administrator for Capital Access

           Christine Liu
           Chief Information Officer

           Deepak Bhargava
           LMAS Project Manager
           /s/ Original Signed
  From:    Debra S. Ritt
           Assistant Inspector General for Auditing
Subject:   Report on Planning for the Loan Management and Accounting System Modernization
           and Development Effort
           Report No. 8-13

           This report addresses SBA’s Loan Management and Accounting System (LMAS)
           modernization and development effort. The LMAS project, currently in the
           planning phase, was initiated in November 2005 to modernize SBA’s mainframe-
           based Loan Accounting System (LAS) and make it independent from the
           mainframe, which was inflexible, presented security risks, and was based on
           obsolete technology. This report addresses progress that the Agency has made
           since project inception, the soundness of SBA’s project management approach,
           and the adequacy of oversight activities that have been established to review the
           conduct and requirements of the planning effort. It is intended to communicate
           areas of risk that need to be addressed as the LMAS project progresses.

           In September 2005 the OIG reported that, according to SBA’s strategic systems
           plan, the single biggest challenge facing SBA was the modernization of its loan
           accounting process, which was still being supported by LAS as the central hub.1
           We noted that LAS was close to the end of its expected useful life and was not
           compliant with SBA’s Information Technology Architecture. To address these
           issues, we recommended that SBA immediately develop and deploy an effective
           LAS migration or modernization plan.

           1
               SBA Needs to Implement a Viable Solution to its Loan Accounting System Migration Problem, Report Number 05-29,
               September 30, 2005.
We initiated this audit of LMAS to identify technical and management issues early
in the project’s development life cycle. The objectives of the audit were to
evaluate the (1) progress SBA has made since project inception, (2) soundness of
the project management approach, and (3) adequacy of project oversight. To
address our objectives, we interviewed SBA personnel, and reviewed SBA policy
documents, LMAS project planning materials, contracts, and budget submissions.

We also reviewed documents provided by the LMAS Project and Steering
Oversight Council and LMAS Change Control Board. In addition, we assessed
SBA’s compliance with Federal laws and regulations regarding the development
and protection of Federal information systems and data. We further reviewed
documents that identified current risks and vulnerabilities related to the LAS
system. Our audit was conducted between March 2007 and January 2008 in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States.

BACKGROUND
The LMAS project is one in a series of attempts by SBA during the past several
years to update existing financial software application modules that currently
comprise LAS and to migrate them off of the mainframe environment. [ FOIA Ex.
2

      ]. LAS has been in place for over 30 years, is inflexible, and provides an
end-user interface that is both difficult to navigate and comprehend.

As required by the Federal Information Security Management Act (FISMA) and
the Federal Information Processing Standard (FIPS) 199, Standards for Security
Categorization of Federal Information and Information Systems, [FOIA Ex. 2


       ].

To identify the best solution for addressing the limitations of LAS and the security
risks of operating in a mainframe environment, in December 2004 the Office of
the Chief Information Officer (OCIO) prepared a Migration Mainframe Business
Case Analysis, outlining several alternatives. Based on this analysis, the OCIO
recommended migrating LAS off the mainframe without adding any new user
requirements or functionality. This alternative was determined to present the
lowest risk and to be the most cost effective solution as it did not constitute a re-
design or new systems development effort. The OCIO’s analysis indicated that
this alternative would allow SBA to replace LAS in a more strategic manner



                                          2
without the time constraint imposed by the impending expiration of the mainframe
contract. The initial goals of the proposed migration plan were to:

            • Reduce the extremely high cost of the current mainframe hardware;

            • Have a solution in place prior to the expiration of the mainframe
              contract in February 2007 to avoid the need to re-compete the contract;
              and

            • Address the security issues associated with the current mainframe-based
              entry screens.

By migrating LAS off of the mainframe, the Acting Chief Information Officer
(CIO) in 2005 estimated that SBA could potentially save $16.4 million during the
first 5 years of operation outside of the mainframe. The CIO proposed to initiate
the project in January 2005, with the migration of LAS to a new operating
platform and termination of the mainframe contract in February 2007. However,
the OCIO’s proposal to initiate this project was not approved by SBA’s Business
Technology Investment Council.

In September 2005 the OIG reported that even though LAS presented a substantial
risk to the Agency, SBA had not yet adopted and implemented a definitive
migration strategy or replacement approach for LAS.2 We recommended that the
Agency adopt a plan to expedite the migration of LAS off the mainframe and to
make it the highest priority of SBA.

Following the OIG report in November 2005, SBA announced that it was
initiating the LMAS project. At that time, SBA stated its intent to implement a
single integrated loan and financial management system that not only included
migration to a new operating platform, but also included the modernization of all
the loan system components—from the core loan functions to the 19 subsystems
associated with loan processing and servicing operations. A November 14, 2005,
project initiation memorandum stated that, given the budget environment, the
Agency’s intent was to develop the project incrementally. It also stated that the
project was expected to take several years or more and would have significant
budget requirements. In February 2006, the Administrator again announced that
the Agency would incrementally transition from the legacy loan systems to a more
modern and cost effective LMAS.

To manage the project, SBA established an LMAS Project and Steering Council
comprised of senior executives that meet weekly to evaluate the project status and

2
    SBA Needs to Implement a Viable Solution to its Loan Accounting System Migration Problem, Report Number 05-29,
    September 20, 2005.


                                                         3
provide direction. The Committee members include the CIO, Deputy CIO, Chief
Financial Officer, the Administrator’s Senior Advisor for Policy and Planning, and
the Associate Administrators for Management and Administration, Capital Access,
and Disaster Assistance. Additionally, the Associate Administrator for Capital
Access was designated to be the project champion.

RESULTS IN BRIEF
Despite the urgency of addressing LAS security vulnerabilities, SBA was unable
to replace the system prior to the expiration of the mainframe contract in February
2007, causing the Agency to renew costly contracts for mainframe and application
support services for another 5 years. These services are expected to cost
approximately $6 million per year.

Currently, LMAS remains in the project planning phase—the first stage of the
systems development effort. The project is expected to stay in this phase for
another year because SBA revised its acquisition strategy in October 2006, and
decided to adopt the Statement of Objectives (SOO) methodology in December
2006 instead of using a requirements-based Request for Proposal (RFP). The
SOO methodology is a seven-step approach to performance-based acquisition,
under which SBA will identify the contractor who can design the best system for
accomplishing SBA’s business objectives. SBA believes this approach will save
the Agency time and money and result in a better product because it is based on
elaborate market research, due diligence, and prototyping processes in selecting
the integration contractor. Under revised plans, it is unclear when LAS will be
migrated off of the mainframe as the timing of the migration effort will be
determined by the solution provider, who will not be identified until SBA awards
the contract in late April 2008. However, the LMAS project manager has
indicated that once portions of LMAS are completed, they will be migrated off the
mainframe.

Because SBA was unable to migrate LAS off the mainframe, [FOIA Ex. 2

                                           ]. By delaying the migration, SBA is
not adhering to Federal guidance that requires timely remediation of information
security risks. [FOIA Ex. 2


                                                                            ].


The audit also disclosed that SBA had not established either an enterprise-wide or
project-level quality assurance (QA) function to ensure that LMAS project
deliverables meet SBA’s requirements and quality standards, as required by


                                         4
OCIO. While the LMAS Project and Steering Council has provided independent
oversight of the project, it cannot perform the wide range of quality assurance
activities and technical reviews required for a project that is as large and complex
as LMAS.

Finally, the project lacks an approved Quality Plan that establishes the standards
and procedures that will be employed to ensure adherence to OCIO’s
requirements, as required by Federal Acquisition Regulations (FAR). Because
SBA did not finalize a Quality Plan in time for the project solicitation, it will need
to ensure that such requirements are developed before a contract is awarded for
LMAS. According to the OCIO, SBA has requested that vendors who compete
for the LMAS contract include in their proposals a Quality Assurance Surveillance
Plan, and will ensure this plan is in place prior to the solution provider’s
commencement of any work task.

SBA will also need to establish an enterprise-wide and a project-level QA function
for the LMAS project. Doing so early in the project life cycle is essential to
provide independent assurance on project reporting and metrics, compliance with
SBA Information Technology policy, and an independent assessment of the
project deliverables. Although the Agency has not effectively established a
project-level QA function for LMAS, OCIO is pursuing two enterprise-wide QA
activities. It is currently piloting an Enterprise Change Control Board, which
when fully implemented, will review LMAS. Also under the new OCIO
organizational structure, an enterprise-wide quality assurance (QA) component is
being proposed.

On May 14, 2008, the Chief Information Officer provided a formal response to the
draft that incorporated comments from the Office of Capital Access, generally
concurring with recommendations 1, 2, and 3. However, management did not
provide time frames for implementing proposed actions to be fully responsive to
the recommendations. Further, we did not receive comments from the LMAS
project manager addressing recommendations 4 and 5. Therefore, we plan to
pursue a management decision on these two recommendations through the audit
resolution process. The full text of management’s comments can be found in
Appendix II.

RESULTS
SBA Has Not Migrated LAS Off the Mainframe

To-date, SBA has expended approximately $1 million of the $1.5 million
budgeted for the initial development of the system to:

    • Update the project capital asset plans and submit them to OMB;


                                          5
       • Engage in market research to identify the most likely commercial-off-the-
         shelf (COTS) products that could be used replace either all or part of LAS;
         and

       • Contract for project management services to assist in project support and
         an RFP for the acquisition of a replacement system.3

Contrary to the OCIO’s recommendation in the Business Case Analysis and
concerns raised by the OIG in May 2006, SBA did not migrate LAS off the
mainframe platform when the mainframe contract expired in February 2007 to
reduce the cost and security risks associated with the mainframe hardware.
Consequently, in February 2007, SBA entered into new contracts for mainframe
and applications support. These contracts will expire in January and April 2012,
respectively, and together, are estimated to cost approximately $30 million over
the 5-year life of the contracts.

SBA’s limited progress in developing LMAS is largely attributable to the
Agency’s decision this year to revise its acquisition strategy. According to SBA’s
contract for LMAS project management services, a modernization roadmap and
integrator Statement of Work for the project were scheduled to be completed and
accepted by SBA in September 2007. In October 2006, SBA revised its
acquisition strategy from a requirements-based RFP to an SOO methodology, and
on October 5, 2007, announced that it was looking for a solution provider for the
LMAS project. Rather than building a system based on defined system
requirements, the SOO approach will identify the contractor who, based on an
understanding of SBA’s business processes, can design the best system for
accomplishing SBA’s business objectives. SBA believes this approach will save
the Agency time and money and result in a better product because it is based on
elaborate market research, due diligence, and prototyping processes in selecting
the integration contractor.

Current plans call for SBA to select the best solution provider and award the
contract by April 22, 2008. According to an October 5, 2007, SBA press release,
the total cost of developing LMAS over the next 3 to 5 years and the cost of
maintaining and operating the system for the next 10 years could approach
$125 million.

Because SBA revised its acquisition strategy, the Agency has essentially restarted
the LMAS project, placing it in the same position as it was in 2005 when LMAS
was first initiated. Consequently, LMAS remains in the initial activities related to
the project planning phase. Unless carefully managed, this strategy could increase
3
    On March 23, 2006, SBA hired Macro Solutions of Arlington, VA for systems development support.


                                                         6
project risks as it places a high reliance on the contractor to both develop system
requirements and to design the solution, potentially locking the Agency into using
one service provider. It also could impact SBA’s ability to take advantage of
changes in technology that occur during the project’s life cycle. However, SBA
has acknowledged these risks and has indicated that it will take steps to mitigate
them.

By Delaying its Mainframe Migration, SBA is Not Adhering to Federal
Guidance That Requires Timely Remediation of Information Security Risks

Although LAS is designated a [FOIA Ex. 2       ] per FIPS 199, Standards for
Security Categorization of Federal Information and Information Systems, [FOIA
Ex. 2



]. According to SBA’s November 27, 2007, Plan of Action and Milestones
(POA&M), [FOIA Ex. 2



].

Currently, SBA’s migration plans are linked to the solution to be identified under
the SOO approach. Because a contract will not be awarded to a solution provider
until late April 2008, it is unlikely that migration will occur before the new
contracts expire in 2012, and SBA will continue to incur significant mainframe
costs. Further, it is unclear what priority will be given to the migration effort and
when in the project cycle it will occur under SBA’s revised acquisition strategy. If
not addressed in the project plan, migrating LAS off the mainframe could be
pushed toward the end of the project. Additionally, because the timelines for the
LMAS project are not sufficiently integrated with that of SBA’s new mainframe
contract, LMAS development activities may not dovetail with processing
requirements of the mainframe contract.

By delaying the mainframe migration, SBA has not complied with Federal
guidance that requires timely remediation of information security risks, and has
left the Agency vulnerable to potential system attacks by external sources. FIPS
200, Minimum Security Requirements for Federal Information and Information
Systems, requires that organizations employ appropriately tailored security
controls. Office of Management and Budget (OMB) Circular A-130, Management
of Federal Information Resources, also requires agency heads to, “Protect
government information commensurate with the risk and magnitude of harm that
could result from the loss, misuse, or unauthorized access to or modification of


                                         7
such information.” As mentioned above, [FOIA Ex. 2
                                                          ]. These vulnerabilities, if
not mitigated, will likely affect conclusions reached in future Federal Information
Security Management Act (FISMA) reviews and financial audits of SBA.
Consequently, we believe that SBA should take interim steps to address the
security vulnerabilities until the migration can be completed.

SBA Lacks Both an Enterprise-wide and Project-level Quality Assurance
Function to Ensure that LMAS Adheres to Quality Standards

OCIO’s Systems Development Management policy requires that an enterprise QA
function be established to provide oversight of software development projects,
which is independent of all SBA projects and programs. The purpose of the
enterprise QA function is to ensure that all IT projects undertaken by SBA adhere
to SBA’s quality standards and procedures throughout the software development
and maintenance process. This function is intended to allow SBA to fulfill its
mission under the Clinger Cohen Act to provide independent assurance that
software development, testing and configuration management efforts are aligned
with SBA’s IT architecture and are compliant with SBA development standards
and policies.

In addition, OCIO requires that a QA group be established at the project-level to
execute QA activities for each software project. These activities include verifying
that project plans, standards, and procedures are in place and can be used to review
the software project and to evaluate the deliverable software products against these
standards. The group is to be headed up by a QA manager, who is independent of
the project and is responsible for ensuring that adequate resources and funding are
provided for performing QA activities.

Despite these requirements, SBA lacks both an enterprise QA function and an
adequate project-level QA function to oversee the LMAS project. The CIO is in
the process of establishing an enterprise QA group and has hired a manager for the
group, but has not been allocated additional positions with which to staff up the
group. The project-level QA function is currently being performed by the LMAS
Project and Steering Council, which is made up of senior executives. These
executives include the CIO, Deputy CIO, Chief Financial Officer, the
Administrator’s Senior Advisor for Policy and Planning, and the Associate
Administrators for Management and Administration, Capital Access, and Disaster
Assistance.

While several of the council members have the organizational freedom to be the
“eyes and ears” of senior management on the LMAS project, with the exception of
the CIO, they do not possess the expertise needed to conduct technical reviews of
the software development activities. They also cannot devote the time that would


                                          8
be required to perform all of the QA activities. For example, the individual(s)
managing the QA process would be expected to participate in software design and
code reviews, ensure that software and test documentation is subject to
configuration management, and participate in software verification and validation
activities. They would also be expected to continuously review project activities
and audit software work products throughout the project’s life cycle to provide
management the information with which to judge whether LMAS is adhering to
established quality guidelines. Because council members have full time
responsibilities for the organizations they manage, they cannot devote the time to
QA that is needed nor do they have the IT background needed to review project
deliverables for adherence to OCIO configuration management and other quality
requirements.

According to the LMAS Project Manager, project-level QA will also be met
through Independent Verification and Validation (IV&V), which determines
whether products produced at each step of the development effort fulfill
requirements and function as intended. However, while IV&V testing is important
to ensure that system requirements are met, it is fundamentally different than
software quality assurance and has different reporting interfaces. IV&V is a
systems engineering process that is independent from the project team, which
emphasizes the completeness and correctness of the products/deliverables; while
software QA emphasizes compliance with standards and procedures and is
matrixed with the project team to provide daily oversight of the project.
Therefore, the IV&V testing will not adequately ensure that the LMAS software is
designed in compliance with OCIO’s quality standards.

Inadequate software quality could lead to project cost and schedule overruns, a
system that does not meet SBA’s requirements, software failures that require
costly repairs, limited interoperability of system components, and inflexibility of
the system to adapt to new customers, tasks and other hardware and software.
Given the size and complexity of the LMAS, and that multiple system interfaces
are planned, SBA should consider outsourcing the project-level QA activities to
obtain a dedicated team with the expertise needed to perform the full range of QA
activities, as other Federal agencies have done.

For example, the State Department recently outsourced QA on a large, complex
network modernization project entitled State Messaging and Archive Retrieval
Toolset (SMART). This QA function established quality goals, related
performance baselines and periodically assessed project performance results
against established quality and performance baselines. As a result, SMART
project stakeholders had additional assurance that project activities and
deliverables met predetermined standards and that an effective corrective action
process was deployed early in the project’s lifecycle thereby avoiding costly
rework.

                                         9
SBA Has Not Finalized a Quality Plan for the LMAS Project

OCIO’s Systems Development Management policy requires that a quality plan be
established in the early stages of systems development projects. The quality plan
establishes standards and procedures that will ensure adherence to the OCIO’s
policies and establish high level quality requirements, thereby facilitating the
identification of defects early in the project life cycle and avoiding costly rework.
These quality standards include documentation and deliverable acceptance
requirements, testing, configuration control, problem reporting and corrective
action processes, and periodic audits. Further, the quality plan should be
developed prior to solicitation, as required by the Federal Acquisition Regulations
(FAR). These regulations state that “the contracting officer shall include in the
solicitation and contract the appropriate quality requirements.”4 FAR further
provides that agencies may either prepare the quality plan or require vendors to
submit a plan for consideration in the development of the agency’s plan.5 The
FAR also states that requiring compliance with “higher level” quality standards
(e.g., industry standards, such as ISO 9001) is appropriate in solicitations and
contracts for complex or critical items.6

Despite these requirements, SBA released its solicitation proposal for LMAS
without having an approved quality plan for LMAS. A draft plan was developed,
but it was never finalized or approved by the CIO. Consequently, the lack of a
quality plan early in the LMAS planning phase limits the consideration of quality
standards, processes, and metrics in the initial planning iterations and project
management performance baselines. In subsequent project phases (such as
execution, monitoring and control) it can also significantly increase the risk of
noncompliance with SBA’s enterprise quality standards; adversely affect key
control processes, such as project performance reporting, change control
management, and defect repair and prevention; and lead to costly rework.

The LMAS project manager told us that because the FAR allows agencies to
require its solution provider to propose quality plans, and the provider that SBA
selects will be responsible for preparing the LMAS Statement of Work, the
Agency plans to have the provider propose the draft quality plan. While we agree
with SBA’s interpretation of the FAR, when the solicitation is for a complex or
critical system, such as LMAS, FAR provides that compliance with higher level
standards should be required. We noted that SBA’s solicitation did not require
compliance with higher level standards, such as those defined in OCIO’s Systems
Development Management policy or industry standards.


4
  FAR 46.201(a).
5
  FAR 37.604.
6
  FAR 46.202-4(b).


                                         10
RECOMMENDATIONS

We recommend that the Associate Administrator for Capital Access:

1. Make cost-effective remediation of mainframe vulnerabilities a priority and
   ensure that migration of LAS occurs before the current mainframe contract
   expires in 2012 to reduce SBA’s mainframe costs and timely mitigate
   associated security risks.

We recommend that the Chief Information Officer:

2. Ensure interim remediation and prioritization of identified LAS vulnerabilities
   are completed consistent with the guidelines established by FIPS 200 and
   OMB A-130.

3. Design and implement an Enterprise-wide QA function that fully addresses the
   risk and scope of the LMAS project and ensures the OCIO can fulfill
   responsibilities under the Clinger-Cohen Act to provide independent quality
   assurance and oversight of Information Technology investments.

We recommend that the LMAS project manager:

4. Consider outsourcing the project-level QA function to ensure alignment
   between LMAS project deliverables with SBA’s quality standards.

5. Finalize and obtain OCIO approval of the Quality Plan for LMAS and
   incorporate the plan’s quality standards into the contract that is ultimately
   awarded for development of LMAS.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On April 18, 2008, we provided SBA a draft copy of the report for comment. We
discussed the findings and recommendations with the Chief Information Officer
and LMAS project manager. On May 14, 2008, the Chief Information Officer
provided written comments to the draft that incorporated comments from the
Office of Capital Access. These comments, which address recommendations 1, 2
and 3, are summarized below. The full text of these comments can be found in
Appendix II. We did not; however, receive comments from the LMAS project
manager addressing recommendations 4 and 5.

Management generally concurred with recommendations 1, 2 and 3, but did not
provide time frames for implementing proposed actions. Management agreed to


                                         11
form a team to re-evaluate open mainframe vulnerabilities to determine alternative
cost-effective solutions to remediate vulnerabilities and to develop a strategy for
addressing the vulnerabilities that will consider the associated risk and cost
implications. Management also agreed to ensure that interim remediation and
prioritization of LAS vulnerabilities is consistent with FIPS 200 and OMB A-130
guidance. Finally, management stated that it is currently working on an Agency-
wide QA oversight function, which will include developing QA standards,
monitoring the LMAS project plan and implementing QA activities throughout the
LMAS project schedule. These actions will be fully responsive to
recommendations 1, 2 and 3 once the Agency submits time frames for
implementing proposed actions. We will pursue a management decision on
recommendations 4 and 5 through the audit resolution process.

ACTIONS REQUIRED

Because your proposed actions do not provide target dates to be considered fully
responsive to recommendations 1, 2 and 3, we request that you provide a written
response by May 28, 2008, providing the time frames you propose for
implementing the recommendations.




                                        12
     APPENDIX I. SUMMARY OF LOAN ACCOUNTING
             SYSTEM VULNERABILITIES REPORTED
             IN SBA’S FY 2007 PLAN OF ACTION AND
             MILESTONES SUMMARY


                        Number      Number       Number
                       Identified Identified as Identified      Total Number of
                        as High-    Medium-      as Low-        Vulnerabilities by
 LAS Subsystem*           Risk        Risk         Risk            Subsystem
 Subsystem 1           FOIA Ex. 2 FOIA Ex. 2       FOIA Ex. 2      FOIA Ex. 2
 Subsystem 2           FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2            FOIA Ex. 2
 Subsystem 3           FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2            FOIA Ex. 2
 Subsystem 4           FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2            FOIA Ex. 2
 Subsystem 5           FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2            FOIA Ex. 2
 Subsystem 6           FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2            FOIA Ex. 2
 Subsystem 7           FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2            FOIA Ex. 2
 Subsystem 8           FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2            FOIA Ex. 2
 Subsystem 9           FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2           FOIA Ex. 2**
  Totals               FOIA Ex. 2 FOIA Ex. 2 FOIA Ex. 2            FOIA Ex. 2
* For security purposes, the subsystems have not been named.
**One vulnerability was not deferred to FY 2013.

Source: SBA’s November 27, 2007, Loan Accounting System Plan of Action and
        Milestones




                                           13
